02/26/03           15:37 FAX 301 903 4656          _    CAPITAL REGION                 * FORS FIVEA             91002/004




DOE-F 1325.8
(68-93)                                                                                 Depament        of   Energy
United States Goverment                                                                 Department of Energy


Memorandum                                                                          OFFICE OF .NSPECTOR GENERAL


           DATE:      February 26, 2003
     REPLY TO
      ATTN OF:        IG-34 (A02CG004)                           Audit Report No.: OAS-L-03-11

      SUBJECT:        Audit of the Office of Science Infrastructure Modernization Initiatives
          TO:         Acting Associate Director, Office of Laboratory Operations and Environment,
                         Safety and Health, SC-80

                      The purpose of this report is to inform you of the results of our audit of the Office of
                      Science's infrastructure modernization initiatives. The audit was performed between
                      May and September 2002 at Departmental Headquarters, Brookhaven National
                      Laboratory, and Argonne National Laboratory. The audit methodology is described in
                      an attachment to this report.

                      INTRODUCTION AND OBJECTIVE

                      Each year since the Department's Fiscal Year 2000.Performance and Accountability
                      Report, the Office of Science (Science) has identified the deterioration of its facilities
                      as a Departmental Challenge. Science noted that the Department risk!s not being able
                      to conduct world class science if the condition and functionality of its facilities are not
                      addressed.

                      To resolve its Departmental Challenge, Science planned a series of corrective actions
                      designed to modernize its infrastructure and eliminate or satisfy its deferred
                      maintenance. These actions included developing various plans to identify needs and
                      to support a Congressional budget submittal that would reflect those needs. In light of
                      the planned corrective actions, our audit objective was to determine whether Science
                      has made progress in its efforts to modernize its infrastructure.

                       CONCLUSION AND OBSERVATIONS

                       Science had taken a number of steps necessary to modernize its laboratories but may
                       not be successful in obtaining the funding necessary to fully implement
                       modernization. Specifically, Science laboratories prepared Ten-Year Strategic
                       Facilities Plans to address infrastructure modernization needs in support of the Science
                       missions. In addition, the Office of Science prepared an Infrastructure Frontier report
                       to summarize the modernization needs identified in the strategic facilities plans and a
                       Modernization Roadmap that provided various funding plans for addressing those
                       modernization needs.
02/26/03   15:38 FAX 301 903 4656             CAPITAL REGION                -.   FORS FIVEA            [Q003/004




             In the absence of likely future funding increases to implement modernization, the
             Office of Science may wish to explore expanded use of alternative financing
             mechanisms to achieve its goals for modernization. For example, Oak Ridge National
             Laboratory plans to revitalize its aging infrastructure by incorporating private sector
             and State of Tennessee funds along with available Department of Energy funds.

             A response to this report is not required. We appreciate the cooperation of your staff
             during our review.




                                                       Rickey   . Hass, Director
                                                       Science, Energy, Technology,
                                                         and Financial Audits
                                                       Office of Audit Services
                                                       Office of Inspector General

              Attachment

              cc:   Director, Laboratory Infrastructure Division, SC-82
                    Audit Liaison, Office of Science, SC-62
                    Audit Liaison, Office of Executive Operations and Support, ME-2.1




                                                  2
02/26/03   15:38 FAX 301 903 4656               CAPITAL REGION                -   FORS FIVEA            it004/004




                                                                                           Attachment

      METHODOLOGY

      To accomplish our objective, we:

             *   Evaluated the Office of Science's Infrastructure Modernization Initiative and the
                 corrective actions to address the Departmental Challenge.

             *   Obtained and reviewed applicable Departmental requirements for property, plant,
                 and equipment as well as Departmental orders pertaining to life-cycle asset
                 management and maintenance and held discussions with the Department's Office of
                 Engineering and Construction Management officials.

             *   Held discussions regarding the Infrastructure Modernization Initiative and related
                 plans with Headquarters and field officials.

             *   Held a discussion with the Department's Office of Planning and Analysis regarding
                 any of their studies of the Department's infrastructure maintenance and
                 modernization.

             *   Held a discussion with a National Research Council official regard:ing any studies
                 on federal infrastructure and maintenance benchmarks.

       We also obtained and reviewed Ten-Year Strategic Facilities Plans, maintenance plans,
       performance criteria and measures, condition assessment survey reports, and held discussions
       with responsible contractor officials. In addition, we reviewed contractor data on
       maintenance and deferred maintenance and compared these amounts with those entered in the
       Facilities Information Management System.

       The audit was conducted in accordance with Government Auditing Standards for performance
       audits and included tests of internal controls and compliance with laws and regulations to the
       extent necessary to satisfy the audit objective. Because our review was limited, it would not
       necessarily have disclosed all internal control deficiencies that may have existed at the time of
       our audit. To accomplish the audit objective, we utilized computer-processed data for
       background or informational purposes only, and the reliability of the data was not vital to our
       audit results.! Accordingly, we concluded that citing the data source in the report and ensuring
       that the data were the best available will satisfy the reporting standards for accuracy and
       completeness. An exit conference was held on November 25, 2002.




                                                    3
DOE F 325.8                                                                            \
(08-93,
.Jnited States Government                                                           Department of Energy


Memorandum                                                                      OFFICE OF INSPECTOR GENERAL

          DATE:    December 31,    2002
    REPLY TO:     IG-30 (A02CG004)

    SUBJECT:      Draft Report on "Office of Science Infrastructure Modernization Initiatives"

          TO:     Director, Office of Science, SC-1

                  Attached for your review and comment is a copy of our draft report on the subject
                  audit. The audit was performed at Department Headquarters, Brookhaven National
                  Laboratory, and Argonne National Laboratory.

                  Please review the information in this draft and provide written comments within 15
                  working days on the facts presented, conclusions reached, appropriateness of the
                  recommendations, and reasonableness of the estimated potential monetary impact or
                  other benefits that may be realized. If you agree with the recommendations, please
                  state the corrective actions taken or planned and the actual or target dates for the
                  actions. Your comments should discuss alternative recommendations if you know of
                  better ways to solve the problems discussed in the report. If you submit alternatives,
                  please estimate the potential benefits to be realized from these alternative actions.

                  The Office of Inspector General (OIG) will make every effort to include
                  management's comments in their entirety in the final report. Management should limit
                  its comments to no more than two pages, with more detailed comments addressed in
                  an attachment. The OIG will review the comments submitted by management and
                  address relevant comments in the final report or revise the report, if appropriate. The
                  content of the final audit report is the responsibility of the OIG.

                  This draft report is subject to change and does not represent the final position of the
                  OIG. Therefore, the contents shall be safeguarded at all times to prevent improper
                  disclosure. The draft report should not be provided to anyone outside the Department
                  without the express approval of the Inspector General. In this context, management
                  and operating contractors shall be considered to be part of the Department. DOE
                  Order 221.3 states that all copies of the draft report remain the property of the OIG
                  and shall be returned on demand.

                  We will contact you shortly to arrange a meeting on the subject report. Your
                  cooperation will be greatly appreciated. If you ave any questions, please call
                  John Yi on (301) 903-2601 or Kevin Majane 0 01) 903-4065.




                                                       Frederick D. Doggett
                                                       Deputy Assistant Inspector General
                                                         for Audit Services
                                                       Office of Inspector General

                  Attachment

                  cc: Audit Liaison, Office of Science
                      Audit Liaison, Chicago Operations Office
                      Team Leader, ME-2.1
                    U.S. Department of Energy
                    Office of Inspector General
                    Office of Audit Services

                    Infrastructure Series




Draft Audit Report
       O oj
Office of Science lnfrastructure
                       "    *                               .... .
                                                          . ..                  ....



       dernization Initiatives


                                                  .   .    ...             .      .




   S      5"   *:      0                                   .6
                                                                 *r!
                                                                       *
                                                                               kg:-;·
                                                                               **
                                           DRAFT


 MEMORANDUM FOR THE DIRECTOR, OFFICE OF SCIENCE

 FROM:                 Rickey R. Hass
                       Director, Science, Energy, Technology and Financial Audits
                       Office of Audit Services
                       Office of Inspector General

SUBJECT:               INFORMATION: Audit Report on "Office of Science
                       Infrastructure Modernization Initiatives"

BACKGROUND

The Department of Energy plays a unique role in supporting the nation's research
activities by constructing, operating, and maintaining major research facilities that are
accessible to the scientific community. These facilities have been regarded as national
treasures and include major scientific instruments and ten national laboratories.
Combined, the laboratories' operating budgets exceed $3 billion annually. Laboratory
infrastructure includes about 2,500 buildings containing over 20 million square feet of
space with a replacement value of over $13 billion. More than 20,000 scientists,
engineers, and technicians perform cutting-edge experiments and research to fulfill the
Department's various missions.

For the past several years, the Department has identified the deterioration of its science
facilities as a major challenge, noting that the degradation of these facilities could
eventually affect the Department's ability to conduct world-class science. The Office of
Science reported that nearly 70 percent of its laboratory complex was over 30 years old
and 50 percent of its work spaces were inadequate, and concluded that these issues would
impact productivity, research reliability, and the ability to attract and retain top-quality
scientific talent. The Department identified a backlog of over $1 billion dollars in
general purpose infrastructure projects needed to modernize its laboratories and also
report over $700 million in deferred maintenance.

To address these concerns, Science planned a series of corrective actions designed to
modernize its infrastructure and eliminate or satisfy its deferred maintenance. These
initiatives included the development of strategic plans and performance measures. We
initiated this audit to determine whether Science had made progress in these efforts.

RESULTS OF AUDIT

While Science had taken a number of positive steps, additional action was necessary to
ensure a fully successful laboratory modernization effort. For example, Science had not
completed modernization plans even though it recognized the need for additional
investment in its infrastructure more than two years ago. Also, actions taken to assess
site-level modernization needs were not based on firm criteria and resulted in inconsistent
data submissions. Science also had not developed performance measures to guide its
efforts to achieve necessary modernization. Without adequate plans or performance
                                          DRAFT


management goals, the Department lacked the tools necessary to focus scarce capital
investment funding on the most critical Science facilities or projects.

The Department has taken some action to improve infrastructure modernization efforts.
Specifically, Office of Science officials told us that based on Departmental budget
guidance, they plan to increase infrastructure funding to meet industry standards for
maintenance spending. We made a number of recommendations designed to assist the
Department as it pursues these and other infrastructure improvement initiatives.

This report is one in a series that the Office of Inspector General has prepared regarding
aspects of the Department's efforts to address its infrastructure requirements. For the past
several years, our office and other reviewers have noted that mission-critical
infrastructure has been deteriorating at an alarming rate and that required maintenance
was often not being performed. Our other reports discuss infrastructure issues facing the
Department's Environmental Management and National Nuclear Security Administration
program areas.

MANAGEMENT REACTION

To be added.


Attachment

cc:   Audit Liaison, SC-62
      Team Leader, Audit Liaison, ME-2.1
                                                                DRAFT


 OFFICE OF SCIENCE INFRASTRUCTURE MODERNIZATION INITIATIVES


TABLE OF CONTENTS


Modernization Initiatives

D etails of Finding .......................................................................................................                 . ..................

Recomm endations and Comm ents..................................                              ........................................................             2


Appendices

Scope and M ethodology .............................................................................................                            .................. 3

Prior R eports ...............................................................................................................            . ................... 5
                                               DRAFT


                               MODERNIZATION INITIATIVES


 Modernization Planning

Despite initial progress, The Office of Science (Science) had not adopted or implemented an
infrastructure modernization plan almost two years after it recognized the issue as a
Departmental challenge. Even though it collected and published a compilation of infrastructure
related data entitled "Infrastructure Frontier: A Quick Look Survey of the Office of Science
Laboratory Infrastructure," it did not develop an overall modernization plan. Science did not
accept, reject, or prioritize needs outlined in the Strategic Facilities Plans nor commit to their
support. In addition, funding requests necessary to address the needs were never developed.
Science indicated that it did not act on the data because it was not based on firm criteria and was
internally inconsistent. In some instances, Federal and contractor officials told us that the list of
projects represented a "wish list" rather than a critical assessment of modernization needs.
Despite a commitment to do so in Fiscal Year 2002, Science had not completed its
modernization plan by fiscal year end.

Planning Guidance and Performance Goals

While Science recognized that accurate site-level data was critical for prioritizing modernization
initiatives among its laboratories, it did not provide criteria for the collection of data or correct
original submissions. For example, Science did not specify criteria to ensure that its laboratories
consistently report deferred maintenance, actual maintenance, or estimated replacement plant
value (RPV)' necessary to evaluate the adequacy of maintenance investments and the condition of
facilities. Brookhaven's estimate of deferred maintenance exceeded $300 million because it
included the cost of major renovations to its facilities. In contrast, Argonne, similar to
Brookhaven in size and age, defined deferred maintenance somewhat differently and reported
needs of less than $20 million. Also, Argonne and Brookhaven used different bases to report
actual maintenance costs for their facilities. Brookhaven reported over $36 million in direct
funded maintenance costs while Argonne reported none at all. In addition, RPV was calculated
at Argonne using historical costs of facilities while Brookhaven used a parametric model.

In addition, Science had not fully developed performance measures to guide completion of its
modernization initiatives. Although Science established a goal to fully modernize its
laboratories over a ten-year period, the measure focused solely on reducing the recapitalization
period. This measure focused on inputs and did not measure modernization outcomes actually
achieved. Furthermore, neither Argonne nor Brookhaven adopted a measure that would support
Science's goal to reduce the recapitalization period. The only infrastructure related goal
established at Argonne was a measure to adhere to the annual maintenance plan. Brookhaven
established two performance measures; however, neither focused on reducing the recapitalization
period.
                                              DRAFT


Science Mission Impacts

The lack of investment in infrastructure and the failure to adopt a plan have created obstacles to
effectively managing the Science program. As noted by the Office of Science, the Department is
at risk of not being able to conduct world class science if the condition and functionality of its
facilities are not addressed. Science officials also indicated that infrastructure conditions have
made it more difficult to recruit and retain scientific talent. Without additional action and
consistent infrastructure information, neither the Department nor the Office of Science has an
accurate basis to evaluate the adequacy of its maintenance investments or the condition of its
facilities.


RECOMMENDATIONS

We recommend that the Director, Office of Science:

    1. Expedite the completion and adoption of a plan to modernize the national laboratories.

   2. Establish a single set of criterion. to be used by all of the national laboratories when
      reporting information related to Science infrastructure.

   3. Establish specific, quantifiable performance measures to track the success of
      modernization initiatives.


MANAGEMENT REACTION

To be added.


AUDITOR COMMENTS

To be added.




                                                2
                                             DRAFT


                                          APPENDIX 1


                               SCOPE AND METHODOLOGY


SCOPE

The audit was performed between May and September 2002, at Department Headquarters in
Washington, DC, and Germantown, MD. In addition, on-site fieldwork was performed at
Brookhaven National Laboratory, NY, and Argonne National Laboratory, IL.


METHODOLOGY

To accomplish our objective, we:

   *   Evaluated the Office of Science's Infrastructure Modernization Initiative and the
       corrective actions to address the Departmental challenge.

   *   Obtained and reviewed applicable Departmental requirements for property, plant, and
       equipment as well as Departmental orders pertaining to life-cycle asset management and
       maintenance and held discussions with the Department's Office of Engineering and
       Construction Management officials.

   *   Held discussions regarding the Infrastructure Modernization Initiative and related plans
       with Headquarters and field officials.

   *   Held a discussion with the Department's Office of Planning and Analysis regarding any
       of their studies of the Department's infrastructure maintenance and modernization.

   *   Held a discussion with a National Research Council official regarding any studies on
       federal infrastructure and maintenance benchmarks.

We also obtained and reviewed 10-Year Strategic Facilities Plans, maintenance plans,
performance criteria and measures, condition assessment survey reports, and held discussions
with responsible contractor officials. In addition, we reviewed contractor data on maintenance
and deferred maintenance and compared these amounts with those entered in the Facilities
Information Management System.

The audit was conducted in accordance with generally accepted Government auditing standards
for performance audits and included tests of internal controls and compliance with laws and
regulations to the extent necessary to satisfy the audit objective. Because our review was
limited, it would not




                                               3
                                             DRAFT


necessarily have disclosed all internal control deficiencies that may have existed at the time of-
our audit. To accomplish the audit objective, we utilized computer-processed data for
background or informational purposes only, and the reliability of the data was not vital to our
audit results. Accordingly, we concluded that citing the data source in the report and ensuring
that the data were the best available will satisfy the reporting standards for accuracy and
completeness.




                                                4
                                     DRAFT


                                  APPENDIX 2

                               PRIOR REPORTS



 SSpecial Report: Management Challenges at the Department of Energy
  (DOE/IG-0538, December 2001). The report stated that a key challenge to the
  Department is that the condition of the Department's infrastructure is deteriorating at
  an alarming pace and may be inadequate in the future to meet mission requirements.

 SAudit Report: Recruitment and Retention of Scientific and Technical Personnel
  (DOE/IG-0512, July 2001). The report stated that the Department has been unable to
  recruit and retain critical scientific and technical staff in a manner sufficient to meet
  identified mission requirements. As a result, the Department may not have the
  Federal scientific and technical expertise to effectively administer the work of its
  contractors. In such an environment, there is an increased risk of a variety of
  management problems.

S- Audit Report: Management of the Nuclear Weapons ProductionInfrastructure
  (DOE/IG-0484, September 2000). The report stated that the production infrastructure
  had seriously degraded. Preventive and predictive maintenance had not been
  performed when scheduled. As a result, the Department's defense complex was
  comprised of aging facilities that required increased maintenance and upgrades that
  were delayed to future periods.

SAudit Report: FacilityMaintenanceat the Idaho NationalEngineeringand
 EnvironmentalLaboratory(WR-B-01-04, March 2001). The report stated that the
 Idaho Operations Office has not maintained its facilities in a safe and economical
 manner. A sample of work orders for preventive maintenance revealed that 51
 percent were not completed by the requested due date, and facility problems were
 often related to untimely completion of maintenance work orders.

SU.S. Infrastructure: Funding Trends and Opportunitiesto Improve Investment
 Decisions (GAO/RCED/AIMD-00-35, February 2000). The report stated that the
  amount of federal spending devoted to infrastructure shows a continuous downward
 trend after Fiscal Year 1987 while the spending by state and local governments is
 continuing an upward trend that began in the 1980s and exceeds federal spending in
 certain categories.

SFederalBuildings: Billions are Neededfor Repairs and Alterations
 (GAO/GGD-00-98, March 2000). The report stated that GSA has struggled over the
 years to meet the repair and alteration requirements identified at its buildings.




                                       5
                                                                  DRAFT



                                                MONETARY IMPACT REPORT


                                       MONETARY IMPACT OF REPORT NO.:



       1. Title of Audit:            Audit of the Office of Science Infrastructure Modernization Initiatives

       2. Region/Office:             Science, Energy, Technology, and Financial Audits

       3. Project No.:               A02CG004

       4. Type of Audit:

                Financial:                     _                         Performance:          X
                   Financial Statement                                     Economy and Efficiency
                  Financial Related                                        Program Results                      X
                Other (specify type):

       5.

                                                                                                                  MGT.          POTENTIAL
            "FINDING                           BETTER USED                           QUESTIONED COSTS           POSITION         BUDGET
                                                                                                                                 IMPACT
                                                    Recurring
 (A)              (B)           ©         (D)        (E)          (F)          (G)            (H)        (I)        (J)              (K)
                  Title        One      Amount       No.         Total      Questioned    Unsupported   Total   C=Concur            Y=Yes
                               Time      Per         Yrs.       Amount       Portion        Portion             N=Noncon            N=No
                                         Year                                                                    U=Undec
                  N/A                                            N/A                                    N/A




TOTALS-ALL FINDINGS             $0        $0                     s$0
                                                                 $0            sO                         0               .:-   ,      ,




       6. Remarks:        There is no current monetary impact or potential future savings.

       7. Contractor:                                                                10. Approvals:
       8. Contract No.:                                                                  Division Director & Date
       9. Task Order No.:                                                                Technical Advisor & Date
      •                         Department of Energy
                                     Washington, DC 20585

                                  January 23,            2003




MEMORANDUM FOR FREDERICK D. DOGGETT
               DEPUTY ASSISTANT INSPECTOR GENERAL FOR
                AUDIT SERVICES

FROM:                    JOHN RODNEY CLARKeU i            (!024                   P
                         ASSOCIATE DIRECTOR O SCIENCE FOR
                           RESOURCE MANAGEMENT

SUBJECT:                 Comments on IG Draft Report, "Office of Science Infrastructure
                         Modernization Initiatives"

The Office of Science (SC) staff has reviewed the subject report and submits the following
comments. For the most part, SC agrees with the observations and recommendations in the
draft report, provided that the final version incorporates the following suggested changes.

Page 1 of the draft memorandum, last paragraph:

*   Fifth line: The following sentence is inaccurate and should be deleted: "... site-level
    modernization needs were not based on firm criteria and resulted in inconsistent data
    submissions." Although each SC laboratory was provided flexibility in determining their
    respective needs in order to achieve Laboratory of the 21 st Century status, Dr. Decker, in
    memoranda to the field in August 2000, provided detailed guidance outlining consistent
    information that was to be supplied in the Strategic Facilities Plans.

Page 1 of the draft report, "Modernization Planning" paragraph:

*   Third line: The following sentence should be modified to state that an overall
    modernization plan was developed: "Even though it collected and published a
    compilation of infrastructure related data entitled "Infrastructure Frontier: A Quick
    Look Survey of the Office of Science Laboratory Infrastructure," it did not develop
    an overall modernization plan." SC did develop a 'Roadmap' which included several
    options for addressing the needs identified in the Frontier Report. This Roadmap is
    providing guidance for ongoing budget deliberations within SC.

*   Fifth line: The following sentence is inaccurate and should be deleted: "Science did not
    accept, reject, or prioritize needs outlined..." The statement is incorrect because the
    proposed line item projects were vetted with the SC Program Associate Directors and
    their representatives in several meetings. Proposed projects which were agreed upon


                                   SPrinted   Prnewith soy ink
                                                            n on recycled paper
                                                                                              2

    were prioritized by fiscal year and by laboratory and included in the Infrastructure
    Frontier report. Some proposed line item projects were rejected and not included in the
    report.

* Seventh line: The following sentence is inaccurate and should be deleted: "In addition,
  funding requests necessary to address the needs were never developed." SC
  submitted an increased infrastructure funding request in the Science Laboratories
  Infrastructure Program (based on information in the Roadmap) to OMB, and it was
  rejected by OMB due to overall budgetary constraints.

* Ninth line: The sentence with "wish list" should be deleted. SC has considered the
  accepted and prioritized list of projects as a plan to accomplish the modernization of SC
  laboratories over a ten year period. Clearly, funding realities are such that we can not
  accomplish modernization over ten years-it will have to be much longer.

Other factual accuracy items, obtained from recent reports from the Facilities Information
Management System (FIMS), should also be incorporated into the final version of the
document as follows:

*   Under "Background." first paragraph:
    * change the number of buildings to 1,553
    * change "over 20 million" to "almost 20 million"
    * change the replacement value to $6 billion

* Under "Background," second paragraph:
  * change "nearly 70 percent" to "over 65 percent"
  * change "50 percent of it work spaces were inadequate" to "20 percent of active
     building space is rated fair or lower"
  * change "$700 million in deferred maintenance" to "$400 million in deferred
     maintenance for active buildings in FY 2002."

* Under the Modernization Initiatives section, Planning Guidance and Performance Goals,
  first paragraph:
  * change "$300 million" to "$200 million in FY 2002"
  * change "$20 million" to "$40 million in FY 2002"

We hope you find these comments helpful as you finalize the report. If you have any
questions concerning these comments, please contact Steven Rossi at 3-5534.
SDOE F 1325 8
(08-93)
United States Government                                                            Department of Energy


Mem orandum                                                                     OFFICE OF INSPECTOR GENERAL

          DATE:    MAR      3 2003
    REPLY TO:     IG-34 (A02CG004)

     SUBJECT:     Final Report Package for "Audit of the Office of Science Infrastructure
                  Modernization Initiatives" Audit Report No.: OAS-L-03-11

           TO:    Frederick D. Doggett, Deputy Assistant Inspector General for Audit Services


                  Attached is the required final report package on the subject audit. The pertinent details are:

                  1.     Actual Staff days:     201

                         Actual Elapsed days: 289

                  2.     Names of OIG and/or contractor audit staff:

                         Assistant Director:    George W. Collard
                         Team Leader:           Kevin Majane
                         Auditor-in-Charge:     John Yi
                         Audit Staff:           Michelle Mathews, Stacy Bleigh

                  3.     Coordination with Investigations and Inspections:

                         Vera Shepard and Brenda Froberg of Investigations and Henry Minner of Inspections
                         on May 06, August 02, and November 19, 2002.




                                                                       Rickey R. Hass, Director
                                                                       Science, Energy, Technology,
                                                                        and Financial Audits
                                                                       Office of Audit Services
                                                                       Office of Inspector General


                  Attachments:
                  1. Final Report (3)
                  2. Monetary Impact Report
                  3. Audit Project Summary Report
                  4. Audit Database Information Sheet
                                                                                                                 Attachment. 2

                            MONETARY IMPACT OF REPORT NO.: OAS-L-03-11


       1. Title of Audit:           Audit of the Office of Science Infrastructure Modernization Initiatives

       2. Region/Office:            Science, Energy, Technology, and Financial Audits

       3. Project No.:              A02CG004

       4. Type of Audit:

               Financial:                                            Performance:                   X
                  Financial Statement                                  Economy and Efficiency
                  Financial Related                                    Program Results                             X
               Other (specify type):

       5.

                                                                                                                     MGT.       POTENTIAL
            FINDING                        BETTER USED                           QUESTIONED COSTS                  POSITION      BUDGET
                                                                                                                                  IMPACT
                                                Recurring
 (A)             (B)           ©         (D)      (E)         (F)          (G)            (H)            (I)           (J)           (K)
                 Title        One      Amount    No.         Total      Questioned    Unsupported       Total      C=Concur         Y=Yes
                              Time       Per     Yrs.       Amount       Portion        Portion                    N=Noncon         N=No
                                        Year                                                                        U=Undec
                 N/A                                         N/A                                        N/A




TOTALS-ALL FINDINGS            $0        $0                   $0           $0             $0             $O




       6. Remarks:       There is no current monetary impact or potential future savings.

       7. Contractor:                                                            10. Approvals:

       8. Contract No.:                                                                 Division Director,
                                                                                        & Date                  [AOr           3
                                                                                                                              Pff

       9. Task Order No.:                                                               Technical Advisor
                                                                                        & Date
                                            Office of          the Inspector General (OIG)
                                      Audit Project Office Summary (APS)
                                                                                                                               Page 1
Report run on:                  February 28, 2003 8:10 AM


  Audit#: A02CG004             Ofc:   FOA     Title: SCIENCE INFRASTRUCTURE

                                                                 * Milestones         K.****             -


                                               --------------    Planned ----------------                        Actual
                                             Profile          End of Survey          Revised

   Entrance     Conference:               15-SEP-02               13-MAY-02         13-MAY-02                13-MAY-02

   Survey Completed:                      15-NOV-02               02-AUG-02         02-AUG-02                02-AUG-02

   Field Work Complete:
   Draft Report Issued:                                                                                      20-NOV-02

   Exit Conference:
   Completed with Report:                 15-JUN-03               02-AUG-02         02-AUG-02                26-FEB-03    (R     )
   --------     Elapsed Days                       273                   81                                      289
   ----------    Staff Days:                       360                    0                                      201

   Date Suspended:                                             Date Terminated:
   Date Reactivated:                                        Date Cancelled:
   DaysSuspended(Cur/Tot):                  0 (            )Report Number:          OAS-L-03-11
   Rpt Title:      AUDIT OF THE OFFICE OF SCIENCE INFRASTRUCTURE MODERNIZATION INITIATIVES

                                      !     ****    Audit Codes andPersonnel ****


  Aud Type:           Not Found
  Category:.          Not Found                                         AD:         530        MAJANE.
  DOE-Org: HST        HEADQUARTERS, OFFICE                              AIC:,       796        YI
  Maj Iss:            Not Found                                         HDQ-Mon: 421           SCHULMAN
   Site:             Not Found                                          ARM:        459        COLLARD

                                                         *Task    Information

         Task No:
         Task Order Dt:                                        CO Tech. Rep:
         Orig Auth Hrs:                                        Orig Auth Costs:
          Current Auth:                                        Current Auth Cost:
          Tot Actl IPR Hr:                                     Tot Actl Cost:


                                                     S***.,Time Charges ****

                 SEmpCont Name                Numdays                  eDate
                                                                   iLast                                     "

                   BOOS,   B                             0.1        22-FEB-03
                   STINE, S                              0.8        28-DEC-02
                   BLEIGH, S                             6.6        19-OCT-02
                   MAJANE, K                         48.8           02-NOV-02
                   YI, J                            144.9           22-FEB-03
                   Total:                           201.2
                                              Office of the Inspector General                   (OIG)
                                       Audit Project Office Summary (APS)
                                                                                                                                Page 2
Report run on:                 February 28, 2003 8:10 AM

                                                         ****ATC Information

    Atc     Atc Rank       Atcdesc.'           -.                                   .




                                       .l**         acility/Location         Information.                       .'

  Code     Facilitydesc                                                                                         Location   '.




                                              ****Finding Information-*,***               Bud   Mgt      DeFn
                                                                                                           pt                    Dtept
 Find#                 Title                                  Type     Amount,      Yrs Imp     Pos      Po     Amount           Date




                                                               Audit Objective

    Audit Number:      A02CG004                                            Objective Date: 07-MAY-02

    Title:     SCIENCE INFRASTRUCTURE

    Objective Text:
    TO DETERMINE WHETHER THE OFFICE OF SCIENCE HAS A PRIORITY BASED
    SYSTEM FOR IDENTIFYING, PLANNING, BUDGETING, AND IMPLEMENTING
    UPGRADES TO ITS LABORATORY COMPLEX.

    CHANGED AT END-OF-SURVEY:

    TO DETERMINE WHETHER THE ACTIONS BY THE OFFICE OF SCIENCE TO
    MODERNIZE ITS INFRASTRUCTURE RESULTED IN SIGNIFICANT
    IMPROVEMENTS IN ITS RESEARCH FACILITIES.

    AT REPORT    DRAFTING,       THE OBJECTIVE WAS MODIFIED AS FOLLOWS:

    TO DETERMINE WHETHER SCIENCE HAS MADE PROGRESS IN ITS EFFORTS                                   TO
    MODERNIZE ITS INFRASTRUCTURE.

                                                          :
                                         •.· \ I,:            z...Audit Report Summary.

   Audit No:     02CG004                 Rpt Summary Date: 25-NOV-02

  Title:    SCIENCE INFRASTRUCTURE

   Report Summary Text:
            BASED ON OUR AUDIT, WE CONCLUDED THAT THE OFFICE OF SCIENCE HAD TAKEN A NUMBER OF
            STEPS NECESSARY TO MODERNIZE ITS LABORATORIES BUT MAY NOT BE SUCCESSFUL IN
            OBTAINING THE FUNDING NECESSARY TO FULLY IMPLEMENT ITS MODERNIZATION EFFORTS.  WE
            SUGGESTED THAT THE OFFICE OF SCIENCE MAY WISH TO EXPLORE EXPANDED USE OF
            ALTERNATIVE FINANCING MECHANISMS TO ACHIEVE ITS GOALS FOR MODERNIZATION.
                                                                                     Attachment 4

                        AUDIT DATABASE INFORMATION SHEET


1. Project No.:        A02CG004

2. Title of Audit:     Audit of the Office of Science Infrastructure Modernization Initiatives

3. Report No./Date: OAS-L-03-11, February 26, 2003

4. Management Challenge Area:         Infrastructure and Asset Management

5. Presidential Mgmt Initiative:      N/A

6. Secretary Priority/Initiative:     N/A

7. Program Code:       GSR

8.. Location/Sites:   Headquarters, Argonne National Laboratory (ANL-E), Brookhaven
    National Laboratory (BNL)

9. Finding Summary:

   Science had taken a number of steps necessary to modernize its laboratories but may not be
   successful in obtaining the funding necessary to fully implement modernization.
   Specifically, Science laboratories prepared Ten-Year Strategic Facilities Plans to address
   infrastructure modernization needs in support of the Science missions. In addition, the
   Office of Science prepared an Infrastructure Frontier report to summarize the modernization
   needs identified in the strategic facilities plans and a Modernization Roadmap that provided
   various funding plans for addressing those modernization needs.

   In the absence of likely future funding increases to implement modernization, the Office of
   Science may wish to explore expanded use of alternative financing mechanisms to achieve its
   goals for modernization. For example, Oak Ridge Operations Office plans to replace aging
   infrastructure through a development process that uses private-sector capital and expertise by
   the Department of Energy, Oak Ridge National Laboratory, and the operating contractor.

10. Keywords:

   Office of Science
   Infrastructure and Asset Management
   Maintenance
   Infrastructure Modernization
